Case: 17-35408, 10/17/2019, ID: 11467623, DktEntry: 54, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
OCT 17 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MELVIN HODGES, Jr.,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,

No.

17-35408

D.C. No. 2:16-cv-01521-JLR
Western District of Washington,
Seattle
ORDER

Respondent-Appellee.
Before: BERZON and HURWITZ, Circuit Judges, and DEARIE,* District Judge.
The panel has voted to deny the petition for panel rehearing. Judge Hurwitz
voted to deny the petition for rehearing en banc, and Judge Dearie has so
recommended. Judge Berzon voted to grant the petition for rehearing en banc.
The full court has been advised of the petition for panel rehearing or rehearing
en banc and no active judge has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for panel rehearing or rehearing en banc is DENIED.

*

The Honorable Raymond J. Dearie, United States District Judge for the
Eastern District of New York, sitting by designation.

